No. 20-18

 

 

IN THE
Supreme Court of the Anited States

ARTHUR GREGORY LANGE,

Petitioner,
Vv.

STATE OF CALIFORNIA,
Respondent.

On Writ of Certiorari
to the Court of Appeal of the State of California,
First Appellate District

Brief of National Association of Criminal
Defense Lawyers and California Attorneys for
Criminal Justice as Amici Curiae in Support
of Petitioner

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,622 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 11, 2020.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
